No. 20-480
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DAVID BRYON BABCOCK, PETITIONER
v.
KILOLO KIJAKAZI, ACTING COMMISSIONER OF SOCIAL
SECURITY
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT, via email and first-class mail, postage prepaid, this 26th
day of July, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 12,399
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
July 26, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 26, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0480
BABCOCK, DAVID BRYON
ANDREW M. SAUL, COMMISSIONER OF SOCIAL
SECURITY

MELANIE LYNN BOSTWICK
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8483
MBOSTWICK@ORRICK.COM
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
NEAL.KATYAL@HOGANLOVELLS.COM

